     AUDIT REPORT
PROJECT MANAGEMENT OF THE
STEVEN F. UDVAR-HAZY CENTER
        Number A-02-04

          July 31, 2003
                                      SUMMARY

The Steven F. Udvar-Hazy Center is an annex to the National Air and Space Museum under
construction at Washington Dulles International Airport. The Office of the Inspector General
audited the controls over the project management of the Udvar-Hazy Center project. The
purpose of the audit was to determine whether project management practices were effective and
whether financial and management controls were adequate to ensure compliance with contract
terms, policies and procedures, and laws and regulations. We reviewed the major phases of the
project from planning to construction.

Overall, project management practices were effective and financial management controls
were adequate to ensure compliance with contract terms. However, we noted that
improvements were needed in three areas: (1) monitoring budget-to-actual revenues and
expenses, (2) repayment of advance funds, and (3) contract modifications.

One project management best practice is to fix budgetary responsibility. This has been
done. Officials of the National Air and Space Museum monitor revenues received for the
project and are responsible for monitoring project expenses, primarily expenses for the
move in and start up of the Udvar-Hazy Center. The Project Manager in the Office of
Facilities Engineering and Operations has responsibility over the expenses for the design
and construction phases of the project. Other oversight groups monitor the project’s
cumulative budgeted revenues and expenses against actual revenues and expenses.
However, we believe that the Institution should have information available to compare
the timing of the entire project budget against actual revenues and expenses. The
responsible officials would then be in a position to provide more comprehensive and
consistent reports to management officials regarding budget variances so that corrective
action can be taken when needed.

Opportunities exist to improve financial controls over the project management process
by:

    1. providing guidance for monitoring the timing of budget-to-actual for all
       revenues and expenses for all large projects,
    2. completing the process of developing and implementing Enterprise Resource
       Planning System user requirements to monitor large projects,
    3. strengthening the controls over the repayment of advance funds, and
    4. improving the procedures over contract modifications.

Management partially concurred with recommendations one and three and concurred
with recommendations two and four. Management provided implementation plans for
each recommendation. We believe that management’s implementation plans for
recommendations one and two are acceptable. Although management partially
concurred with recommendation number three, we believe that the Institution could
more effectively monitor the repayment of advance funds by reporting the amount of
outstanding advance funds and reducing that amount only when the funds advanced are




                                             ii
repaid. Even though management concurred with recommendation number four, we
believe that their proposed implementation plan does not go far enough to improve
contract modification procedures. The implementation plan’s proposed procedures
should be strengthened to ensure that notices to proceed are not issued before contract
modifications.




                                               ______________________________
                                               Office of the Inspector General




                                             iii
                                                   TABLE OF CONTENTS


                                                                                                                                                 Page

1. Introduction..................................................................................................................................... 1

        A. Purpose .................................................................................................................................... 1

        B. Scope and Methodology.......................................................................................................... 1

        C. Background ............................................................................................................................. 1

2. Results of Audit................................................................................................................................ 3

        A. Monitoring Budget-to-Actual Revenues and Expenses ........................................................ 3

        B. Repayment of Advance Funds ................................................................................................ 8

        C. Contract Modifications......................................................................................................... 10

Appendix A. Comments of the Chief Financial Officer .................................................................. 13



                                       ABBREVIATIONS AND ACRONYMS

                 BUMPPS                                   Budget Management, Planning and Policy System
                 COR                                      Contracting Officer’s Representative
                 ERP                                      Enterprise Resource Planning
                 NASM                                     National Air and Space Museum
                 OFEO                                     Office of Facilities Engineering and Operations
                 OT                                       Office of the Treasurer
                 PFITS                                    Project Financial Information Tracking System
                 SFS                                      Smithsonian Financial System




                                                                       iv
                                     INTRODUCTION

A. Purpose

The audit was included in our fiscal year 2002 plan because the Udvar-Hazy Center project is
one of the largest construction projects at the Institution. The objectives of the audit were to
determine whether project management was effective; financial controls were adequate; and
management controls were adequate to ensure compliance with contract terms, policies and
procedures, and laws and regulations.

B. Scope and Methodology

The audit was conducted from March 7, 2002, to April 18, 2003, in accordance with
generally accepted government auditing standards. The scope of the audit covered the
significant phases of the project from planning to construction as of our audit date. We
determined whether controls were in place to ensure that the project was within budget,
on time, and in compliance with the terms of the major design and construction
contracts. We reviewed:

         •   Policies and procedures relating to project management;
         •   Duties and responsibilities of the project management team, including
             Project Manager, Design Manager, and Resident Engineer;
         •   Contracts and modifications for design and construction;
         •   Key documents used to manage the project, including the project plans, cost
             estimates, schedules, and budgets;
         •   Changes to the budget since inception;
         •   Monitoring of budget-to-actual revenues and costs;
         •   Funding sources, including use of advances;
         •   Smithsonian Directive 410 design reviews;
         •   Monthly and weekly progress reports;
         •   Minutes of the Capital Planning Board;
         •   Board of Regents meetings; and
         •   Charter of the National Air and Space Museum (NASM) Udvar-Hazy Center
             Oversight and Control Board.

We interviewed officials from the Office of Facilities Engineering and Operations
(OFEO); National Air and Space Museum; Office of Planning, Management and Budget;
Office of Contracting; Office of the Comptroller; Office of the Chief Information Officer;
and Office of the Treasurer (OT). We also interviewed the Director for Financial Affairs
of the Office of the Under Secretary for American Museums and National Programs.

C. Background

The Udvar-Hazy Center is an annex to the National Air and Space Museum. The new
facility is located at Washington Dulles International Airport in Northern Virginia. The
facility is approximately 760,000 square feet in size (equivalent to 2 1/2 football fields long
and 10 stories high) and sits on 176.5 acres. It will permit some of the collections
currently stored at the Museum’s Garber facility and many aircraft, spacecraft, and other
artifacts kept outdoors to be safely housed in structures built to museum standards. It


                                                1
also will provide educational facilities for school groups and educators, a large-format
theater, restaurants, museum shops, and an observation deck from which visitors can
watch aircraft arriving and departing from nearby Washington Dulles International
Airport. The project is funded from both federal and private sources.
The approved budget for phase I of the project is $222.4 million. Planning for the new
facility began in the early 1980s. As part of the planning process for the Udvar-Hazy
Center, the Institution contracted with an architectural firm to develop a master plan. A
construction contract was awarded and construction began on April 10, 2001, to
construct the Udvar-Hazy Center in phases. The contract price was $125.6 million for the
first phase of construction, which included the aviation hanger, education center, large
screen theater, food court, museum stores, visitor orientation area, and observation
center. As of March 5, 2003, the contract price had increased to $151.2 million. This
increase was caused by a number of change orders including the addition of the space
hanger and compliance with the Davis-Bacon Act. The new facility is scheduled to open
in December 2003.
OFEO has responsibility for managing the planning, design, and construction of new
Institution facilities. For the Steven F. Udvar-Hazy Center, OFEO has a field office on the
construction site. The field office staff includes a Project Manager, Resident Engineer,
Chief of Quality Assurance, Chief of Engineering Support, Design Managers, and
Construction Engineers. The Institution also uses the services of a commercial
construction management firm. These services include schedule and documentation
tracking, cost and schedule analysis, inspections, testing, and other administrative
assistance. An architectural firm provides architectural and engineering support.
The NASM Udvar-Hazy Center Oversight and Control Board, which is chaired by the
Under Secretary for American Museums and National Programs and is comprised of
representatives from NASM, OFEO, Office of Contracting, Office of Government
Relations, and Office of the General Counsel, have provided oversight for phase I of the
project. Other members include the Chief Executive Officer for Smithsonian Business
Ventures, Chief Financial Officer, Treasurer, Deputy Director of NASM, and the Udvar-
Hazy Center Project Executive. Their objectives are to ensure the on-time completion
and opening of the Udvar-Hazy Center; and to evaluate the schedule, funding, and cost
status. Other oversight entities include the NASM Mall Museum Monthly Executive
Committee, the Capital Planning Board, and the Board of Regents. The NASM Mall
Museum Monthly Executive Committee discusses financial issues, scope changes, and
overall progress of the project. The Capital Planning Board provides advice, counsel, and
recommendations for consideration by the Secretary relating to planning and
implementing the Institution’s capital program. The primary objectives of the Capital
Planning Board are to provide strategic direction and set priorities for all capital
programs, monitor the progress of major capital projects for consistency with approved
budget and schedule baselines and the Institution’s capital plan, and standardize
management practices for all capital projects, new or otherwise. The Board of Regents is
responsible for setting institutional policy and for overseeing the management of the
Institution’s assets.




                                               2
                                   RESULTS OF AUDIT

A. Monitoring Budget-to-Actual Revenues and Expenses

Although management was controlling the Udvar-Hazy Center project’s overall budget
on a cumulative basis, more could be done to monitor and control the budgeted versus
actual revenues and expenses of the project. NASM, OFEO, OT and various oversight
groups monitored and managed revenues and expenses for the project. However, there
was no central system or written guidance to provide these managers with a clear, overall
picture of the timing of the multiple sources of revenues brought in by NASM and the
numerous categories of expenses incurred by both NASM and OFEO. As a result,
management efforts to identify, evaluate, and control revenues and expenses for the
project have been more difficult than necessary.

Background

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive actions to develop and implement appropriate, cost effective
management controls. One purpose of management controls is to provide managers with
reasonable assurance that reliable data are obtained, maintained, reported, and used for
sound decision-making. For large construction projects, management needs information
to monitor progress against budgets. However, because of the complexities of this
project, particular controls are needed over budgeted to actual revenues and expenses.
This project has a special need for monitoring revenue from fund-raising, both in terms
of pledges obtained from donors and the timing of the cash to be received from these
pledges because the majority of funds for this project are to be raised through fund-
raising. The expenses for this project also span two very different organizations, NASM
and OFEO, so there is a need for close monitoring and control over the expenses incurred
by these two units.

According to the Capital Planning Board charter, the Board is responsible for monitoring
the progress of major capital projects for consistency with the approved budget and
schedule baselines and the Institution’s capital plan. The Board is also responsible for
standardizing management practices for all capital projects.

The performance plan for the OFEO Project Manager for the Udvar-Hazy Center states
that this position is responsible for developing, monitoring, and managing the scope,
schedule, and budget for projects in the Five Year Plan and other projects as required, in
conjunction with other OFEO offices and the Smithsonian units’ staff. This position is
responsible for monitoring and updating the total project cost at each design milestone
and throughout construction.

The General Accounting Office (GAO) publication, Creating Value Through World-Class
Financial Management, GAO/AIMD-00-134, dated April 2000, states that to be
meaningful, financial information should be useful, relevant, timely, and reliable.
Relevant financial information should be presented in an understandable, simple format
with suitable amounts of detail and explanation.

According to various publications on project management and cash flow analysis, the best
practices are to:



                                               3
   •   Monitor the timing of actual versus budgeted revenues and expenses to establish
       variances, analyze the reasons for variances, and take the necessary corrective
       actions;

   •   Assign responsibility to the project manager for monitoring, measuring, and
       reporting on project performance and progress; and

   •   Use performance reports to provide information on project scope and cost
       performance to alert the project team to issues that may cause problems in the
       future.

A major purpose of this aspect of our review was to determine if these and other best
practices were in place and operating on the Udvar-Hazy Center construction project.

Results of Review

OFEO, NASM, OT, and other groups monitored the projects budgeted against actual
revenues and expenses on a cumulative basis. This is an important control for such a
large project. An additional control would be to evaluate the timing of planned versus
actual revenues and expenses by discreet periods such as by month, quarter, or year, for
each of the major components of the project. The major components of the project are
the fund-raising, planning, design, construction, construction management, and move-
in/start-up.

   •   The OFEO Project Manager began to compare actual against budgeted expenses
       for planning, design, construction, and construction management during our
       audit. However, the comparison excluded some project costs such as fund-raising
       and move-in/start-up or project revenues and did not address when these
       expenses were budgeted to be incurred and when they actually occurred.

   •   NASM officials compared actual against budgeted expenses for planning, design,
       construction, and construction management and move-in/start-up. However,
       they did not compare actual against budgeted revenues for fund-raising. They
       compared actual fund-raising revenue received against amounts pledged which, of
       course, may not properly reflect the timing for receipt of funds.

   •   The Treasurer’s office produced a report, the Udvar-Hazy Sources and Uses of
       Funds report, which compared the project’s actual revenues and expenses as of the
       report date against the approved budget. However, this report did not allow the
       Treasurer’s office to monitor the timing of the project’s revenues and expenses.
       The report indicated the amount of the project’s remaining expenses, the amount
       of funds committed, and the projected amounts of expenses needed to complete
       the project as of March 31, 2003. However, we could not determine from this
       report whether the Institution was incurring project expenditures in line with the
       timing predicted by management when the project was planned. This is
       important because if the Institution incurred expenses more quickly than
       expected, then management would need to either accelerate the collection of
       revenues or look to other funding sources to pay the project’s expenses. This
       report showed the remaining amount of revenues, the amounts of confirmed



                                              4
        pledges, verbal pledges, and “forecast” revenues. The report did not show whether
        the Institution was receiving project revenues as promptly as management
        anticipated when the project was planned. If the Institution receives revenues
        later than expected, then management needs to know if it must develop alternative
        sources of revenue or take other actions to mitigate the risk of negative cash flow.

Although there were processes to oversee the project on a cumulative basis, there were no
procedures or systems in place to monitor the timing of budgeted versus actual revenues
and expenses due to the following:

    •   Limited Responsibilities. OFEO, NASM, and the Treasurer’s office defined their
        responsibilities narrowly. The OFEO Project Manager’s performance plan stated
        that the Project Manager should develop, monitor and manage the budget as
        required. However, OFEO management stated that their responsibility was
        limited to monitoring only the budgeted versus actual expenses for the design and
        construction of the Udvar-Hazy Center. OFEO interpreted the word “budget”
        from the Project Manager’s performance plan to mean only the project’s design
        and construction expenses. OFEO further narrowed its interpretation of “total
        project cost” to be only OFEO’s costs, not costs incurred by the museum despite
        the fact that those costs are a component of the total project cost. NASM
        management also told us that their responsibility was limited to monitoring
        revenues and the expenses that NASM had approved for the Udvar-Hazy Center.
        The Treasurer told us his office was responsible for making sure that the funding
        needed to complete the Udvar-Hazy Center was within the cash flow projections
        provided to the Secretary and the Board of Regents.

    •   Procedures for Monitoring Budgets. The Institution does not have procedures to
        monitor the timing of budget against actual revenues and expenses at the project-
        level. The charter of the Capital Planning Board indicates the Board is responsible
        for monitoring the progress of major capital projects for consistency with
        approved budget, schedule baselines, and the Institution’s capital plan. However,
        we have not seen evidence that the Board has developed written procedures on
        how it will fulfill these responsibilities. The Board is also responsible for
        standardizing management practices for all capital projects, but we saw no
        evidence that this had been done. The Chief Financial Officer does not have a
        policy on project-level budget monitoring. OFEO management issued a Facilities
        Project Handbook – Procedures and Guidelines, dated September 12, 2002, but
        these procedures do not address project-level monitoring and reporting on
        budget-to-actual revenues and expenses. These procedures fell short by not
        addressing which categories of revenues and expenses should be included in the
        project’s budget.

    •   Information System Weaknesses. At least four systems1 have not provided
        management information to monitor the timing of budget-to-actual revenues and
        expenses for the Udvar-Hazy Center project: SFS, BUMPPS, PFITS, and the ERP
        system. SFS and the budgeting system, BUMPPS, were not designed to be fully
        integrated or produce reports that would allow users to compare budgeted against
        actual revenues and expenses for all types of funds at the project level. PFITS was

1
 The Institution converted financial data from the Smithsonian Financial System (SFS) to the Enterprise
Resource Planning (ERP) system during our audit. The other two systems are the Budget Management,
Planning and Policy System (BUMPPS) and the Project Financial Information Tracking System (PFITS).



                                                      5
       not designed to capture all of this project’s costs or revenue data. Although PFITS
       has the capability to monitor expenditures, it was not designed to produce reports
       that would allow management to compare actual against budgeted expenditures.
       On October 1, 2002, the Institution began installing the general ledger, accounts
       payable, and committing components of the ERP system.

Measuring the timing of actual against budgeted revenues and expenses for the Udvar-
Hazy Center is difficult. NASM, OFEO, and OT personnel all expressed their displeasure
over the management difficulties created by the lack of useful information to monitor
such a significant project. For example, effective communication regarding financial
information among these groups was more difficult than necessary. This problem was
further magnified by the complexity introduced from the various sources of project
funding. Although face-to-face meetings among management helped to alleviate some of
the complexities, the lack of a common basis for monitoring the project contributed to
frustration among all units involved with the project.

Without centralized or consolidated financial information, management of the Udvar-
Hazy Center project will have difficulty monitoring the timing of cash inflows and
outflows for the project. As a result, management may find it more difficult than
necessary to control its planned revenues and expenses for the Udvar-Hazy Center
project. Without this capability, there is an increased risk that management may not have
information in time to make critical adjustments to the project when needed.

Conclusion

Although the Institution monitors the cumulative amount of budgeted-to-actual
revenues and expenses on the project, more could be done to monitor the timing of
budget-to-actual revenue and expenses for these types of projects and share that
information with appropriate officials. The Institution’s financial systems were not
designed to capture data and produce reports for NASM, OFEO, and OT management to
monitor discrete periods of budgeted-to-actual revenues and expenses for the Udvar-
Hazy Center project. We believe, based on best practices, that the Institution should
compare the timing of budget-to-actual revenues and expenses and informing
appropriate management officials of the variances and the need for corrective action.

Recommendations

We recommended that the Chief Financial Officer, as Chairman of the Capital Planning
Board:

   1. Provide guidance for monitoring the timing of budget-to-actual for all revenues
      and expenses for all multi-million dollar projects.

   2. Complete the process of developing and implementing user requirements to
      monitor large projects using the new ERP system.


Management Comments

   1. Partially Concur. The Institution already has the mechanism in place to develop
      budgets and track total costs for multi-million dollar museum projects. The



                                             6
       “Building for the Future” document established the budget baseline for large
       construction projects including the Udvar-Hazy Center. The Undersecretary for
       American Museums and National Programs, relevant museum and Office of
       Facilities Engineering and Operations (OFEO) officials, and others meet in
       various forums to review construction and program progress, construction and
       program financing, and fund-raising requirements. However, until recently there
       was no systematic comparison of monthly spending or fund-raising to a monthly
       plan. The Office of Planning, Management, and Budget (OPMB) has recently
       established a process for all units to submit Monthly Expense Budgets for all
       funds, including capital project funds. As of October 1, 2003, units will also be
       required to provide a monthly revenue “cash flow” plan for all Capital funds,
       federal and trust, on an annual basis, and to show all planned revenues by year, in
       the out years, for all major Capital projects.

   2. Concur. OPMB will establish and lead a work group to develop the requirements
      and necessary reports with the Office of the Chief Information Officer (OCIO)
      and OFEO by March 31, 2004.

Office of the Inspector General Response

Although we noted there was a practice to develop budgets and track total costs for multi-
million dollar projects cumulatively, the practice could be strengthened by monitoring
and taking action to address significant timing differences between budgeted and actual
revenues and expenses. For example, we saw no evidence of a report to compare the
timing of actual cash flows to the timing of budgeted cash flows. The CFO has clearly
acknowledged the need for this information in the above response and indicated that
beginning in fiscal year 2004 adequate information will be in place. When revenues are to
be received in the future, as in the case of the Udvar-Hazy Center, there is a risk that if
sufficient revenues are not received when expected then additional, unbudgeted, trust
funds might be needed to make up the shortfall. Measurement of expected against actual
cash flows by discrete periods would minimize the risk of unidentified revenue shortfalls.
Management would then be in a position to take corrective action to address those
problems as they arise and mitigate the impact of the deviations on the project.

We defer to management’s division of roles and responsibilities between the Project
Manager and the Office of the Treasurer. Our main point was not to introduce different
roles and responsibilities, but to ensure that all parties to the project were working from
commonly understood financial information.




                                               7
B. Repayment of Advance Funds

The report used by the Office of the Treasurer to monitor the repayment of internal
advances could more clearly reflect the actual amounts of advances repaid by NASM for
the Udvar-Hazy Center project. This occurred because the Treasurer’s Management of
Internal Advances report was intended to measure the extent to which the Udvar-Hazy
Center project advances were secured by pledges. If the report identified the actual
repayments against the advances, management would have a more accurate picture of the
museum’s progress in repaying the advanced funds.

Background

The Institution’s procedures, Smithsonian Directive (SD) 308, identify two ways to incur
costs for a program or business before receipt of funding: advances and investments. An
Advance is an internal loan of trust funds secured by almost certain revenues expected in
the near future. Typically, such revenues are expected from confirmed grants or signed
gift pledges. An Investment in a business or Institutional program typically has a much
longer and more uncertain payoff. The expected payoff from a business investment is
increased future income, while that from Institutional programs may be future fund-
raising opportunities or advancement of important Institutional priorities.

The current practice for repaying advance funds within the Office of the Comptroller is to
reduce the spending authority of units when they receive contributions earmarked to
repay advanced funds. By this practice, the units cannot use the contributions for
purposes other then repayment of advance funds. However, the practice for the Udvar-
Hazy Center is different. For the Udvar-Hazy Center, the repayment of advance funds
does not occur when the contributions earmarked to repay advanced funds are received.
Instead, according to the project’s planned sources and uses of cash, those funds are first
used to pay the expenses of the project. When sufficient contributions have been received
to complete the project, then funds from contributions can be used for repayment of
advance funds.

OT personnel monitor the repayment of advances. The OT produces the Management of
Internal Advances report quarterly. The report details the amount of internal advances
approved, remaining at risk, current pledges, and percent of at risk pledged for each
Under Secretary or equivalent.

Results of Review

Currently, the Institution reports the status of repaid advanced funds from the Udvar-
Hazy Center on the Management of Internal Advances report, but only as a single line
item2. In addition, according to the Treasurer, the remaining at risk amount on the
Management of Internal Advances report is reduced by the amount of pledges in hand

2
 Advance funding constitutes approximately $157 million or 71 percent of the project’s budget. Since 1997,
the Institution approved three groups of advance funds for the Center. The first group comprised
approximately $7 million from 1997 to 1999 for design and fund-raising at NASM. The second group was
approximately $126 million advanced in 2001 for the construction contract. The third group was $24
million in additional costs associated with the Davis-Bacon Act, the Space Hangar, and extension of the
North and South ends of the main hangar advanced in 2002. None of these advances were included in the
Institution’s budget. The Institution’s cost of the project was projected to be $222.4 million based upon the
Treasurer’s August 30, 2002, memo to the Board of Regent’s Finance and Investment Committee. The
percentage of advanced funds to the project’s budget is approximately 71 percent.



                                                       8
not by the amount of cash received. The Treasurer told us it is assumed that the
donations, when received, would be used to repay the funds advanced for the Udvar-Hazy
Center. Since the cash to be received from pledges may not be received when expected,
there could be delays in the repayment of the advanced funds. Therefore, we believe a
new figure -- the amount of outstanding advances -- should be reported, monitored, and
reduced only when the cash has been received from the pledges and the funds, which were
advanced, have been repaid.

In addition, in accordance with reports we previously issued regarding risk funds and the
trust fund budget process, we continue to believe that advance funds should be budgeted
and their repayment monitored through the budget review process. We found that to
date, the Institution does not have the capability to use the core financial system, ERP, to
compare budgeted versus actual repayments of advance funds.

Conclusion

Failure to report clearly the status of advance fund repayment increases the risk that if
these funds are not repaid as expected, then management may not be readily alerted. This
decreases control over trust funds. The Institution is implementing a new financial
system that is to include a budget module, which could possibly be used to control the
repayment of advanced funds.

Recommendation

We recommended that the Treasurer more clearly report the repayment of advanced
funds by reporting the amount of outstanding advances to the CFO. This amount should
be used to monitor the repayment of advanced funds and should be reduced only when
the funds advanced are repaid.

Management Comments

Partially Concur. We believe that the management reports being used are adequate
because we have tracked the funds at risk for this project and reported regularly on the
pledges outstanding. We also now have a system for tracking the cash from the
fulfillment of pledges against the initial terms of the pledge.

Office of the Inspector General Response

Although management responded that they compare budgeted and actual pledge
payments, we believe that more can be done to reduce the risk of unpaid advances. The
Institution should monitor the repayment of advance funds by reporting the amount of
outstanding advance funds and reducing that amount only when the funds advanced
funds are repaid. As we have reported in the past, there is a risk that if advance funds are
not repaid the resulting expenses may have to be absorbed by unrestricted trust funds.
This would result in expenses being incurred that were not included in a budget approved
by the Board of Regents. Therefore, this recommendation is unresolved and we will
follow up to obtain an acceptable implementation plan.




                                               9
C. Contract Modifications

The Contracting Officer’s Representative (COR) made unauthorized contractual
commitments to the contractor to proceed with 20 change orders, totaling approximately
$2 million, 3 to 18 months before the Contracting Officer issued a written contract
modification. The COR issued a Notice to Proceed to the contractor to prevent project
delays and increased costs. Issuing a Notice to Proceed before the Contracting Officer has
modified the contract decreases control over the project by allowing the COR to exceed
the authority delegated from the Contracting Officer. Because funds are not obligated in
the Institution’s accounting system until after the contract has been modified, where there
are delays in obtaining written contract modifications, there is an increased risk that
obligations may not be entered into the appropriate accounting period. The resulting
inaccurate accounting information increases the risk of ill-informed management
decisions. In addition, failure to define a price on the revised scope of work before the
modification is complete places the Institution at risk of excessive costs and billings.

Background

We sought to determine if changes to work on services were effected by the Contracting
Officer before the contractor proceeded with the changes. We reviewed 124 change
orders from 25 construction contract modifications. We excluded value engineering
savings change orders from our review because those change orders do not increase the
cost of the construction contact.

The Institution’s delegation letter, the construction contract, and the best practices set
forth by the Federal Acquisition Regulation all require that only contracting officers be
authorized to execute contract modifications. The delegation letter from the Contracting
Officer designating the COR states that the COR will assure that changes in work or
services, and resulting effects on delivery schedule, are formally effected by written
modifications issued by the Contracting Officer before the contractor proceeds with the
changes. The construction contract indicates that the Contracting Officer is the only
person authorized to change or modify the contract or take any action, which obligates
the Institution, and then such action must be set forth in a formal contract modification.
The Federal Acquisition Regulation, which represent the best practices in Federal
contracting, require that only contracting officers are authorized to execute contract
modifications. It also states that other personnel shall not act in such a manner as to cause
the contractor to believe that they have the authority to bind the Government, or direct or
encourage the contractor to perform work that should be the subject of a contract
modification. The regulation also requires that the contracting officer shall not execute a
contract modification that causes or will cause an increase in funds without having
obtained a certification of fund availability and the certification shall be based on the
negotiated price, except that modifications executed before agreement of price may be
based on the best available estimate of cost.

Results of Review

The COR requested the contractor to proceed with $2 million out of $4.8 million (41
percent) in change orders before the Contracting Officer issued a contract modification.
The total cost of the original construction contract was approximately $126 million. We
reviewed 124 change orders of which 20 represented non-approved change orders totaling




                                               10
approximately $2 million. Of the 20 change orders issued prior to contract modification,
only one indicated a specific cost.

According to the COR, notifications to proceed were issued prior to modifications to
minimize the impact of the changes to the project’s schedule and cost. We recognize and
accept the view that Project Managers, especially on construction contracts, may need to
ensure the continuous flow of work and avoid work stoppages. We also noted that the
Institution has inadequate contracting procedures in place to address change orders,
which require a quick turnaround.

Once OFEO “bundled” the change orders and forwarded them to the Contracting Officer,
a modification was issued and the obligations for those change orders were entered into
the accounting system. Because of the overall delays in this process, funds could not be
promptly obligated in the accounting system for the contract modifications associated
with those change orders. Therefore, there was an increased risk that obligations may not
have been reflected in the appropriate accounting period. Inaccurate accounting
information decreases the quality of information available for management to make
informed decisions. In addition, when the Institution does not promptly define the terms
of modifications to fixed-price contracts, the Institution increases the risks of increased
costs and performance deficiencies. When the price of a modification to a fixed-price
contract has not been defined, the modification is treated as a cost-reimbursement
contract and unlike fixed price contracts; the contractors have little incentive to control
costs.

Conclusion

The Director of the Office of Contracting should establish written procedures for all
CORs to ensure that the Contracting Officer receives certification of fund availability and
approves the contract modification before the contractor begins work on change orders.
This process should ensure that funds are obligated immediately within the accounting
system at the time that the contract modification is issued. The Federal Acquisition
Regulation provides some guidance on how this can be accomplished, while providing
proper documentation.

On May 7, 2003, the Director of the Office of Contracting delegated Resident Engineers
the authority to issue Notices to Proceed prior to issuance of a contract modification by
the Contracting Officers. 3 The delegation streamlines the process because the Resident
Engineers would forward Notices to Proceed to the Office of Contracting within 30 days.
However, we believe that OFEO should not wait 30 days, but should promptly submit
Notices to Proceed. Contracting officials would then be able to process the modifications,
including the obligations of funds, promptly.

Recommendation:

We recommended that the Director of the Office of Contracting develop and implement
procedures to ensure that funds are available, contract modifications are authorized in
writing by the Contracting Officer before the Contractor begins work, and funds are
obligated immediately within the accounting system when the contract modification is
issued.
3
 The delegations were issued to the Resident Engineers for the Steven F. Udvar-Hazy Center and National
Museum of the American Indian-Mall museum.



                                                     11
Management Response

Concur. The Director, Office of Contracting, has developed and implemented
procedures to ensure that funds are available, contract notices-to-proceed are authorized
in writing by a delegated Resident Engineer before the contractor begins work or contract
modifications are authorized in writing by the Contracting Officer before the contractor
begins work, and funds are obligated within the accounting system when the contract
modification is issued. A delegation of authority was issued to the Resident Engineer on
May 7, 2003, along with a form agreement for Notice to Proceed letters. The procedure
for this delegated process has been issued.

Office of the Inspector General Response

We continue to believe that OFEO should not issue notices for contractors to proceed
with work that should be the subject of a contract modification. Only Contracting
Officers should modify contracts, however under unusual circumstances Contracting
Officers may issue notices for contractors to proceed according to the best practices
described in Federal Acquisition Regulations section 43.201(c). For these reasons, this
recommendation is unresolved and we will follow up to obtain an acceptable
implementation plan.




                                              12
13
14
15
16
